BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae First Liberty Institute in Support of
Petitioner in 21-144, Seattle's Union Gospel Mission v.
Matthew S. Woods, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 2nd day of September, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Counsel for Petitioner
Jennifer Denise Diskin
QLaw Foundation of Washington
101 Yesler Way #300
Seattle, WA 98104
(206) 483-2725
denise@qlawfoundation.org

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
1 Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Kelly J. Shackelford
Counsel of Record
Jeffrey C. Mateer
David J. Hacker
Stephanie N. Taub
Keisha T. Russell
First Liberty Institute
2001 West Plano Parkway
Suite 1600
Plano, TX 7 507 5
(972) 941-4444
kshackelford@firstliberty.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 2, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GAL~GHE:R
Notary Public, State of Ohio
My Commission Expir. s
r •hri

:'I

If 11 ?'1 ·3

